HHS/OIG-Audit--"Review of the National Institutes of Health Printing Program, (A-15-98-80001)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of the National Institutes of Health Printing Program,"(A-15-98-80001)
March 19, 1999
Complete Text of Report is available in PDF format
(3.2 mb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This final report provides results of review of the National Institutes of
Health (NIH) printing program made to determine whether the program was complying
with laws and regulations applicable to the Government Printing Office's (GPO)
requirements. The report notes the NIH did not report its monthly commercial
printing activity to GPO as required. Also, the NIH did not always provide copies
of printed publications to GPO for distribution to Federal Depository Libraries
and for purposes of cataloging and indexing. Recommendations call for actions
the NIH needs to take to meet the GPO's requirements. The NIH fully concurred
with our recommendations.